No.

m ants

Olaitrt of tlfe United &tat£0
IN RE SUPERVISED ESTATE OF AL KATZ:
LAWRENCE T. NEWMAN
Petitioner,
v.
ROBERT W. YORK,
as Personal Representative,
INTERNAL REVENUE SERVICE, and
STATE OF INDIANA,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF INDIANA
CERTIFICATE OF SERVICE
I hereby certify that three (3) copies of the foregoing Petition for Writ of
Certiorari have been served upon the following party of record by first class
United States Mail, postage prepaid, this 13th day of September, 2019:
Robert W. York
7212 North Shadeland Avenue, Suite 150
Indianapolis, IN 46250
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

7
LAWRENCE T. NEWMAN
Pro Se
4102 66th Street Circle West
Bradenton, FL 34209
(317) 397-5258

